        Amtrak                                             Office of
                                                           Inspector General
                                                                          www.amtrakoig.gov




Semiannual Report
to the United States Congress

                                                                                      Report No.
               October 1, 2011–March 31, 2012                                              45




          Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   1
Table of Contents

From the Inspector General 	                                                                3

OIG Profile 	                                                                               9

Amtrak Profile	                                                                            13

Progress in Addressing Recommendations 	 14
of the Operational Independence Review		
		
Significant Activities: Audits	          19

Significant Activities: Inspections and Evaluations	                                       31

Significant Activities: Investigations 	                                                   37

Ongoing Actions to Strengthen OIG Operations	                                              43

Performance Measures	                                                                      51

Appendices 	                                                                               52

Glossary 	                                                                                 61

Reporting Requirements 	                                                                   63




         Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   1
                                                                          Union Station, Washington , DC




2   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                  From the Inspector General




                         National Railroad Passenger Corporation
                               Office of Inspector General




I am pleased to submit the Amtrak Office of Inspector General (OIG) Semiannual Report to the
United States Congress for the six months ending March 31, 2012. This report highlights our
significant accomplishments during this period, including the results of

•	 the congressionally mandated U.S. Postal Service (USPS) OIG review of Amtrak OIG’s
   operational independence and progress in addressing the report’s recommendations;
•	 audits, inspections and evaluations, and investigations; and
•	 our ongoing initiatives to strengthen the office, and our progress in becoming a model OIG.

Progress in Addressing Recommendations of the Operational Independence Review

Because operational independence is critical to accomplish our mission, I want to first address the
reviews that have been made of operational independence, with a specific emphasis on the recent
USPS OIG review and our significant progress in addressing that report’s recommendations.

The Consolidated Appropriations Act of 2010 included two provisions to assure Congress that
we are operating independently from the Corporation. The first provision required an Inspector
General to determine whether the Corporation and our Office have agreed on a set of policies
and procedures for interacting with each other that are consistent with the letter and spirit of the
Inspector General Act of 1978 (IG Act), as amended. As I have previously reported, on March 17,
2010, the Farm Credit Administration IG issued a report concluding that the Corporation and
our office have agreed to a set of policies and procedures for interacting with each other that are
consistent with the letter and the spirit of the IG Act.

The Act’s second provision required that 1 year later, another IG evaluate the current operational
independence of our office. The U.S. Postal Service IG was selected and on October 28, 2011, issued
a report: National Railroad Passenger Corporation (Amtrak) Office of Inspector General Operational
Independence (Report Number FF-AR-12-001). The USPS IG found that:

•	 our office and the Corporation had made operational independence a high priority by
   undertaking organizational changes and pursuing independence initiatives, with many of the
   issues having been resolved; and

•	 our office and the Corporation had implemented initiatives to remediate identified
   independence issues, including establishing an OIG independent personnel authority for our
   office and improving communications between our office and the Corporation.




                       10 G Street, NE, Suite 3W-300, Washington, DC 20002
                                                                                                       3
    From the Inspector General




         Nevertheless, the report also noted that the Corporation’s structure and management of its
         separate hotline had resulted in employee confusion, along with allegations of potential fraud not
         being appropriately referred to our office for investigation. Of particular concern, it was noted, the
         Corporation was not referring to our office potentially fraudulent employee injury claims.

         In summary, USPS OIG recommended to Amtrak’s Board of Directors that we and the Corporation
         (1) discuss our progress in addressing all independence items in our semiannual report to Congress,
         (2) establish a single hotline that would be managed by our office, and (3) establish a process for
         referring potentially fraudulent injury claims to us. The report also recommended that management
         reinforce its policy requiring all employees to report allegations of suspected fraud, waste, and
         abuse to our office.

         The Board of Directors stated that they agreed with these recommendations, and overall, I believe
         we and the Corporation have fully addressed these recommendations. Specifically:

         This semiannual report addresses our office’s and the Corporation’s efforts to address independence
         issues, including those that our office had identified separately through our operational improve-
         ment initiatives and the specific recommendations contained in the USPS OIG report. We have
         completed addressing the 17 actions identified through our operational improvement initiatives.
         We will continue to expeditiously address new independence issues should any emerge. (For a full
         discussion, see Ongoing Actions to Strengthen OIG Operations/NAPA Recommendations.) The
         USPS OIG-specific recommendations are addressed below.

         •	 The Corporation has renamed its internal hotline as the Amtrak Help-Line for ethics and
            compliance issues to differentiate it from our OIG-managed Fraud Hotline.

         •	 Additionally, Amtrak’s Office of General Counsel and our office have taken steps to ensure
            that our office reviews every complaint that comes into the Help-Line. Under this protocol,
            we have the right of first refusal for audit and investigative purposes. Also, we and Amtrak’s
            Office of General Counsel have developed and implemented new procedures to ensure that any
            allegations, complaints, or information received by our hotline that are administrative in nature
            are referred to the Corporation through the Amtrak Office of General Counsel.

         •	 We and Amtrak’s General Counsel have agreed to new protocols on the Corporation’s reporting
            to our office injury claims by Amtrak employees and others that are suspected to be fraudulent.

         •	 Amtrak’s President and CEO issued a memorandum on January 2, 2012, to all Amtrak
            employees entitled Cooperation with OIG. The memorandum outlines Amtrak policy and
            employees’ responsibilities to report fraud, waste, and abuse to our office and to cooperate with
            our inquiries.




                                10 G Street, NE, Suite 3W-300, Washington, DC 20002
4
                                                                          From the Inspector General




I am pleased to report that our Office of Investigations has been receiving numerous hotline calls
and the Corporation has started referring suspected fraudulent injury claims to us that have led to
our opening investigations.


Significant Accomplishments

We are charged with, among other things, ensuring that Amtrak spends its funds wisely, receiving
appropriate value for its expenditures. The cumulative effect of our work has yielded significant
results. For example, based on our work, Amtrak over the past several years has withheld payment
on over $20 million in questionable invoices.

Similarly, based on our audit work, over time, Amtrak has recovered approximately $6 million in
overpayments from host railroads for inaccurate charges and is in the process of negotiations to
recover additional overcharges.

During this reporting period, our audit and evaluation units issued nine reports; together they
identified just under $12 million in questioned costs, including unsupported costs and funds
to be put to better use. They also included numerous recommendations to improve Amtrak’s
efficiency and effectiveness, such as implementing an enterprise risk management process. Our
investigative work continued to focus on preventing and detecting illegal activity. Examples of our
accomplishments during this period follow:

•	 We determined that Amtrak does not have a formal, coordinated, and systematic enterprise-
   wide framework for identifying, analyzing, and managing risk. The company embraced the
   need to develop a framework and was taking steps in that direction as our work was in progress.
   (Report OIG-A-2012-007.)

•	 We reviewed Amtrak’s progress in implementing provisions of the Passenger Rail Investment
   and Improvement Act of 2008, and found that while headway has been made, five outstanding
   issues represent opportunities for significant savings. The most significant among these is the
   potential for savings totaling $400 million from restructuring the Corporation’s debt portfolio.
   (Report OIG-A-2012-001.)

•	 We identified over $9 million in questioned costs due to weaknesses in Amtrak’s invoice-review
   process. (Report OIG-A-2012-004.)

•	 We found over $2 million in unsupported costs involving contract modification charges for
   overhead billed by a construction company. (Report OIG-A-2012-006.)

•	 In reviewing controls over the use of temporary management assignments (TMA), we
   determined that weak controls over the implementation of the TMA policy, coupled with




                       10 G Street, NE, Suite 3W-300, Washington, DC 20002
                                                                                                       5
    From the Inspector General




         •	 inconsistent practices for paying back wages, may have serious financial consequences
            for Amtrak. If these weaknesses are not addressed, Amtrak may face additional financial
            consequences and pay inequity among employees in the future, when the current round of
            labor negotiations concludes. (Report OIG-E-2012-009.)

         In the investigative area, we entered into a memorandum of understanding with the Amtrak Police
         Department relating to jurisdiction and cooperation. We also recovered over $100,000, and were
         involved in uncovering several instances of employee wrongdoing.



         Significant Actions Taken to Strengthen OIG Operations

         We are continually working to improve our office operations, and these initiatives continue to
         yield results. These actions flow largely from recommendations made by the National Academy of
         Public Administration (NAPA) to improve our operations. Key improvements to our processes were
         developed by each of our NAPA implementation teams during this semiannual period:

         •	 A customizable OIG 101 informational briefing was developed for use with new executives
            and outside stakeholders, and fraud awareness briefings were delivered to over 500 Amtrak
            employees.

         •	 A five-step Audit and Inspections and Evaluations work planning process was developed and
            implemented. Draft performance measures for each of the OIG strategic goals were developed.

         •	 Comprehensive training classes for the audit and inspection/evaluation staff on TeamMate,1
            2011 Revisions to the Yellow Book, Working Paper Preparation, and Cross-Indexing for Working
            Papers and Draft and Final Reports, were conducted.

         •	 Various policy changes were made to strengthen our work process for approving and distribut-
            ing reports.

         •	 TeamMate procedures and protocol documents were completed and provided to the staff.

         •	 The independence team completed 17 action items that it identified to improve our processes,
            policies, and management practices.




            1 Providing a paperless strategy for managing audits, TeamMate is considered the industry standard in audit management software.




                                      10 G Street, NE, Suite 3W-300, Washington, DC 20002
6
                                                                         From the Inspector General




In the Human Capital Management area, we have

•	 filled the position of Assistant Inspector General for Mission Support;

•	 hired new staff for Audits, Inspections and Evaluations, Investigations, and Mission Support;

•	 completed office renovations that provided improved work space for OIG staff; and

•	 funded training classes for management and employee development and staff certifications.


I look forward to continuing to work constructively and professionally with Amtrak’s Board
members, its Chairman, its President and CEO, and Amtrak executives, along with the authorizing,
appropriations, and oversight committees of the Senate and House of Representatives as we
continually seek ways to improve both Amtrak’s effectiveness and efficiency and our mission
performance. In that regard, I want to again thank the President, Chairman, and other Board
members who attended and addressed our semiannual All-Hands Meeting in January. I look
forward to identifying ways to address the challenges that OIG, Amtrak, taxpayers, and the
train-riding public will experience in the months and years ahead, especially in an environment
where we must find practical and feasible ways to do more with less. As Amtrak IG, this is my
commitment to you.




Ted Alves
Inspector General




                      10 G Street, NE, Suite 3W-300, Washington, DC 20002
                                                                                                      7
                                                                       Eastbound Capitol Limited stands at Harpers Ferry, WV




8   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                                                                                 OIG Profile




OIG Profile
Vision, Mission, and Authority
Vision
The Office of Inspector General (OIG) strives to provide Amtrak’s employees,
its customers, the public, and the Congress with the highest quality service and
programs through vigilance, timely action, accuracy, and an overall commitment
to excellence across the broad range of OIG responsibilities.

Mission
The OIG conducts and supervises independent and objective audits, inspections,
evaluations, and investigations relating to Amtrak’s programs and operations;
promotes economy, effectiveness, and efficiency within Amtrak; prevents and
detects fraud, waste, and abuse in Company programs and operations; and
reviews and makes recommendations regarding existing and proposed legislation
and regulations relating to Amtrak’s programs and operations.

Authority
The Inspector General Act of 1978 (Public Law 95-452, 5 U.S.C. Appendix 3),
as amended in 1988 (P.L. 100-504), established the Amtrak OIG to consolidate
existing investigative and audit resources into an independent organization
headed by the Inspector General (IG) to promote economy, efficiency, and
effectiveness; and to prevent and detect fraud, waste, and abuse. Subsequently,
the Inspector General Reform Act of 2008 (P. L. 110-409) amended and
strengthened the authority of the Inspectors General.




                        Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   9
OIG Profile




                                 Guiding Principles and Values
                                 Amtrak OIG’s principles and values are important because they form the building
                                 blocks used to accomplish our mission and conduct our day-to-day operations:


                                                               High Quality,
                                                                Relevance,
                                                                Timeliness




                                                                           Respecting and
                                                  Innovation              Developing People




                                                               Independence
                                    Professionalism            and Objectivity          Customer Service



                                 Amtrak’s OIG will:

                                 •	 High Quality, Relevance, Timeliness—Provide valuable and timely service.
                                    Work products are high quality, relevant, timely, add value, and are responsive
                                    to the needs of Amtrak and its stakeholders.

                                 •	 Innovation—Be innovative, question existing procedures, and suggest
                                    improvements. New ideas and creativity are fundamental to continued
                                    growth, development, and problem-solving.

                                 •	 Respecting and Developing People—Create an environment that supports
                                    gathering, sharing, and retaining knowledge; fosters treating everyone fairly
                                    and with mutual respect through words and actions; ensures professional
                                    growth; and values the diverse backgrounds, skills, and perspectives of
                                    employees.

                                 •	 Professionalism—Be committed to our professional standards and foster
                                    relationships with stakeholders that rely on communication and cooperation.
                                    Relationships with program managers are based on a shared commitment to
                                    improving program operations and effectiveness.




10   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                                                                                         OIG Profile




•	 Independence and Objectivity—Be committed to carrying out our mission
   with objectivity and independence, both in appearance and fact.

•	 Customer Service—Strive to be aware of the needs of stakeholders and
   work with Amtrak’s chairman, the Board of Directors, and the Congress to
   improve program management.



Office of Inspector General Organization

                                        Theodore (Ted) Alves
                                            Inspector General

                                          Thomas J. Howard                       Quality Assurance
                                                 Deputy
                                            Inspector General               Congressional Affairs



         David R. Warren                   Calvin E. Evans                       Adrienne R. Rish
      Assistant Inspector General       Assistant Inspector General         Assistant Inspector General
                 Audits                  Inspections & Evaluations                 Investigations




                   Colin C. Carriere                     Ronald Stith
                          General                  Assistant Inspector General
                          Counsel                        Mission Support


The OIG headquarters is based in Washington, D.C., with five field offices, located
in Boston, Chicago, Los Angeles, New York, and Philadelphia.

The IG provides policy direction and leadership for the office and serves as an
independent voice to the Board of Directors and the Congress by identifying
opportunities and promoting solutions for improving the company’s performance
and economy and efficiency of operations, while preventing and detecting fraud,
waste, and abuse. The Deputy IG assists the IG in developing and implementing
the OIG’s diverse audit, inspection, evaluation, investigative, legal, and support
operations.




                                Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   11
OIG Profile




                                  Audits
                                  The Office of Audits conducts performance and financial-related audits across
                                  the spectrum of Amtrak’s support and operational activities. It produces reports
                                  on those activities that are aimed at improving Amtrak’s economy, efficiency, and
                                  effectiveness, while seeking to detect and prevent fraud, waste, and abuse. The
                                  audit activities are focused on issues related to governance, to include financial
                                  management, acquisition and procurement, information technology, human
                                  capital, and American Recovery and Reinvestment Act-related activities. The
                                  group conducts its work in accordance with generally accepted government
                                  auditing standards.

Investigations examines           Inspections and Evaluations
allegations of fraud, waste,      The Office of Inspections and Evaluations addresses conducts evaluations of
abuse, or misconduct              Amtrak programs and operations to identify opportunities to improve cost
that could affect Amtrak;         efficiency and effectiveness, and the overall quality of service delivery throughout
findings are referred to          Amtrak.
the Department of Justice
                                  Investigations
for criminal prosecution
                                  The Office of Investigations addresses allegations of fraud, waste, abuse, and
or civil litigation, or to
                                  misconduct that could affect Amtrak’s programs, operations, assets, and other
Amtrak management for
                                  resources. Investigative findings are referred to the Department of Justice
administrative action.            for criminal prosecution or civil litigation, or to Amtrak management for
                                  administrative action. The office develops recommendations to reduce Amtrak’s
                                  vulnerability to criminal activity.

                                  General Counsel
                                  The Office of General Counsel is responsible for providing legal assistance and
                                  advice to OIG senior management and supports audits, evaluations, special
                                  reviews, and investigations. Counsel coordinates with outside attorneys,
                                  including local and federal agencies and law enforcement attorneys, and appears
                                  in court on behalf of the OIG and its employees.

                                  Mission Support
                                  The Office of Mission Support provides financial management, procurement,
                                  human capital management, administrative, information technology, and
                                  communications expertise to support OIG operations.

                                  Congressional and Public Affairs
                                  The Office of Congressional and Public Affairs serves as the OIG liaison to Con-
                                  gress and other government entities and the public, and conducts OIG outreach.




12    Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                                                                             Amtrak Profile




Amtrak Profile
The National Railroad Passenger Corporation—Amtrak—is incorporated under
the District of Columbia Business Corporation Act (D.C. Code § 29-301 et seq.)
in accordance with the provisions of the Rail Passenger Service Act of 1970 (P. L.
91-518). Under the provisions of the Passenger Rail Investment and Improvement
Act of 2008 (P. L. 110-432; 49 U.S.C. § 24302), Amtrak’s Board of Directors was
reorganized and expanded to include nine members.

The company is operated and managed as a for-profit corporation providing
intercity rail passenger transportation as its principal business, but relies on
significant funding from the federal government to support operations and capital
investments. Congress created Amtrak in 1970 to take over, and independently
operate, the nation’s intercity rail passenger services. Prior to this, America’s
private freight companies ran passenger rail as required by federal law. Those
companies reported that they had operated their passenger rail services without                      Amtrak’s fleet consists
profit for a decade or more. With this in mind, when Amtrak began service on                         of over 2,100 cars and
May 1, 1971, more than half of the rail passenger routes then operated by the                        locomotives. It owns the
freight railroad companies were eliminated.                                                          right-of-way of over 600
                                                                                                     route miles--over 360 in
                                                                                                     the Northeast Corridor
How It Works: Ownership and Contracting                                                              alone (Washington-
                                                                                                     Boston).
Amtrak owns the right-of-way of 529 route miles (363 in the Northeast Corridor,
which includes Washington, D.C.–New York City–Boston) and the remainder on
lines linking Philadelphia–Harrisburg, Pa.; and New Haven, Conn.–Springfield,
Mass.) It also owns 97 miles in Michigan. Amtrak owns 105 station facilities,
and is responsible for the upkeep and maintenance of an additional 181 station
facilities and 411 platforms. Amtrak owns 17 tunnels and 1,186 bridges in the
Northeast Corridor.

Amtrak owns most of the maintenance and repair facilities for its fleet of over
2,100 cars and locomotives. Outside of the Northeast Corridor, Amtrak contracts
with freight railroads for the right to operate over their tracks. The host railroads
are responsible for the condition of their tracks and for the coordination of all
railroad traffic.




                         Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   13
Operational Independence




                                 Progress in Addressing Recommendations of the Operational
                                 Independence Review

                                 The Consolidated Appropriations Act of 2010 included two provisions to assure
                                 Congress the Amtrak OIG is operating independently from the Corporation.
                                 The first provision required an independent Inspector General to determine
                                 whether the Corporation and the Amtrak OIG have agreed on a set of policies
                                 and procedures for interacting with each other that are consistent with the letter
                                 and spirit of the Inspector General Act of 1978 (IG Act), as amended. On March
                                 17, 2010, the Farm Credit Administration IG issued a report concluding that the
                                 Corporation and the Amtrak IG agreed to a set of policies and procedures for
                                 interacting with each other that is consistent with the letter and the spirit of the
                                 IG Act.21 The second provision required that 1 year after such determination was
                                 made, the Council of Inspectors General on Integrity and Efficiency (CIGIE)
                                 appoint an IG to evaluate the current operational independence of the Amtrak
                                 OIG. The CIGIE appointed the U.S. Postal Service OIG to review the current
                                 operational independence of the Amtrak OIG.

                                 The U.S. Postal Service (USPS) OIG Report Number FF-AR-12-001, National
                                 Railroad Passenger Corporation (Amtrak) Office of Inspector General
                                 Operational Independence, October 28, 2011, found that Amtrak OIG and the
                                 company had made operational independence a high priority by undertaking
                                 organizational changes and pursuing independence initiatives, with many of
                                 the issues having been resolved. Nevertheless, USPS found that the company’s
                                 structure and management of its separate hotline had resulted in employee
                                 confusion, along with allegations of potential fraud not being appropriately
                                 referred to the OIG for investigation. Of particular concern, USPS OIG found that
                                 the company was not referring potentially fraudulent employee injury claims to
                                 the Amtrak OIG.

                                 Overall, USPS OIG recommended that

                                 1.	 Amtrak OIG include in its semiannual report a discussion of progress made in
                                     resolving the issues discussed in the USPS report, including Amtrak’s Board
                                     Chair’s comments;
                                 2.	 Amtrak establish a single hotline and referral process managed by the Amtrak
                                     OIG;
                                      2
                                          Letter from Carl A. Clinefelter, Inspector General, Farm Credit Administration, March 17, 2010, to the Secretary of
                                          Transportation, regarding Amtrak and its Office of Inspector General.




14   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                                                          Operational Independence




                                                                          Audit documentation training session, Washington, DC



3.	 Amtrak reinforce its policy and remind its employees of the Amtrak OIG’s
    responsibility for addressing fraud, waste, and abuse issues;
4.	 Amtrak and OIG develop a plan for the Amtrak OIG to investigate potentially
    fraudulent employee injury claims; and
5.	 in the interim, Amtrak establish a process to refer potentially fraudulent
    injury claims to the Amtrak OIG.

As discussed below, each of these recommendations has been fully addressed.

This semiannual report fulfills the Amtrak OIG’s and the company’s compliance
with USPS OIG’s first recommendation, relating to discussing progress made in
addressing the USPS recommendations, including comments by the Amtrak




                        Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   15
Operational Independence




                                              From left: Amtrak President & CEO Joseph Boardman and Board of Directors members
                                  Bert DiClemente, Jeffrey Moreland, and Anthony Coscia at the January 2012 OIG All-Hands Meeting



                                 Board Chair. As to the Amtrak and OIG hotlines, the company still maintains a
USPS OIG recommended             separate hotline, but it is now limited to “employment, safety, and ethics matters.”
establishment of a               Amtrak’s President issued a memorandum to all employees and contractors
process for referring            on January 24, 2012, reminding them of OIG’s role and directing them to report
potentially fraudulent           to OIG all matters relating to crimes, fraud, abuse of authority, or significant
employee injury claims           mismanagement, but to continue to report ethics, safety, or discrimination issues
to us. This has been             to Amtrak’s help-line. We believe that this arrangement satisfies the USPS OIG’s
done, resulting in closer        recommendation relating to hotlines.
collaboration between
                                 In addition to the hotline recommendation, USPS OIG included specific findings
Amtrak Claims field
                                 and recommendations regarding the investigation of potentially fraudulent
personnel and OIG
                                 employee injury claims. Amtrak OIG has worked closely with the Amtrak
investigators.
                                 Office of General Counsel in dealing with this issue, and the Board of Directors
                                 addressed these findings in a letter dated October 19, 2011, that was included
                                 in the final Postal Service OIG audit report. A major outcome has been closer
                                 collaboration between Amtrak Claims field personnel and OIG’s investigators.


                                 Hotline Operations

                                 The USPS OIG report recommended combining the Amtrak Corporate Ethics
                                 and Compliance hotline with the Amtrak OIG Fraud hotline. The report also
                                 recommended that the company and Amtrak OIG jointly develop policy
                                 and procedures that allow Amtrak OIG to review all hotline allegations first
                                 and determine whether to investigate further or refer to the company for
                                 administrative action, as appropriate.

                                 The Amtrak Board of Directors responded that the company needed to retain a
                                 hotline for several reasons, including compliance with legal requirements. The
                                 Board directed Amtrak management to rename the corporate hotline for


16   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
employment, safety, ethics, and other management concerns to differentiate it
from the OIG fraud hotline. The Board further directed management to take steps
to ensure minimal confusion between the two hotlines and ensure that the OIG
has the opportunity to initially review all complaints to the corporate hotline for
fraud, waste, and abuse.

All of these recommendations have been addressed. The company has renamed
its internal hotline as the Amtrak Help-Line for ethics and compliance issues.
The company, working with OIG, has created new Help-Line marketing materials
for distribution to Amtrak employees. These publications explain the difference
between the Amtrak Help-Line and the OIG Hotline. The Amtrak Office of
General Counsel and the OIG have also taken steps to ensure that OIG reviews
every complaint that comes into the Help-Line. Under this protocol, OIG has the
right of first refusal, to accept for audit or investigative review, any information
received by the company Help-Line. Finally, OIG and Amtrak General Counsel
have initiated new procedures to ensure that any allegations, complaints, or
information received by the OIG Hotline that do not warrant OIG review are
referred for management action through General Counsel rather than directly to
the affected Amtrak department.


Suspected Injury Claims Fraud

OIG and the Amtrak General Counsel have agreed to new protocols on reporting
to the OIG suspected fraudulent injury claims by Amtrak employees and others.
The General Counsel has developed and distributed to Claims personnel a
list of red-flag indicators of possible claims fraud and has agreed to a policy
encouraging direct interaction between Amtrak Claims field personnel and
OIG investigators. The Office of Investigations has initiated investigations into
instances of suspected claims fraud.


Bolstering OIG Independence

On January 24, 2012, the Amtrak President and CEO issued a memorandum
to all Amtrak employees entitled Cooperation with OIG. The memorandum
supplements his prior directive and outlines Amtrak policy and employees’
responsibilities to report fraud, waste, and abuse to the OIG and to cooperate
with OIG inquiries.




                         Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   17
                                             Amtrak’s Adirondack heading south along the western shore of Lake Champlain, New York




18   Amtrak Office of Inspector General I Semiannual Report to Congress I April
                                                                          October
                                                                                1, 2011–
                                                                                    1, 2011–
                                                                                          September
                                                                                             March 31,
                                                                                                    30,2012
                                                                                                        2011
                                                                                      Significant Activities | Audits




Significant Activities:
Audits

During this reporting period, OIG issued seven audit reports, summarized

below. The full reports may be accessed through our website: www.amtrak.gov.

Also during this period, Amtrak recovered $658,127 in previously identified

overpayments.


Passenger Rail Investment and Improvement Act of 2008: Amtrak Has
Made Good Progress, but Continued Commitment Needed to Fully Address
Provisions
(OIG-A-2012-001, October 26, 2011)

The Passenger Rail Investment and Improvement Act of 2008 (PRIIA)
reauthorized the National Railroad Passenger Corporation (Amtrak) and
strengthened the U.S. passenger rail network by tasking Amtrak, the Department
of Transportation, the Federal Railroad Administration, states, and others to
improve operations and services. PRIIA authorized nearly $10 billion for Fiscal
Years 2009–2013 for Amtrak’s operating costs and capital investments, including
actions to help Amtrak improve its financial management, operate more
efficiently, and improve services on existing routes. The Act assigned 29 sections
to Amtrak: most required Amtrak to act within a specified time frame, others
suggested that Amtrak take or consider some action, and the rest required or
suggested that Amtrak respond to actions taken by federal or state agencies.
Our audit objectives were to assess the progress that Amtrak had made in
implementing Amtrak-assigned PRIIA provisions by comparing the provision’s
requirements and suggestions with the progress Amtrak had made to address
them. We also evaluated the quality and effectiveness of Amtrak’s actions to
implement three selected sections: Restructuring Long-Term Debt and Capital
Leases (Section 205); Long-Distance Routes (Section 210); and Passenger Train
Performance (Section 213).

Amtrak made good progress in addressing the 29 PRIIA provisions assigned to
it. It addressed nine requirements and nine suggestions; it continues to work
on responding to seven PRIIA sections. Amtrak has not responded to one
suggestion—that it expand the use of special trains to reduce federal subsidies.


                        Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   19
Significant Activities | Audits




                                 Amtrak did not have to react to three sections because the events that are
                                 preconditions to its responding have not occurred.

                                 While Amtrak had made good progress in addressing most PRIIA requirements
                                 and suggestions assigned to it, we identified five issues that represent
                                 opportunities for savings or improving the implementation of PRIIA provisions:

                                 •	 Restructuring more Amtrak debt could generate savings.

                                 •	 Implementing long-distance improvement plans faces challenges.

                                 •	 Developing a process to support using on-time-performance remedies.

We recommended that              •	 Implementing Amtrak’s new financial system is key to completing several
                                    remaining provisions.
Amtrak management
provide Congress with
                                 •	 Determining whether additional special trains could help reduce federal
data on potential savings
                                    subsidies.
from early buyout of
long-term debt; Amtrak           To address the opportunities to increase revenues, minimize federal subsidies,
agreed.                          and improve performance during Amtrak’s continuing implementation of PRIIA,
                                 we recommended that the President and Chief Executive Officer direct the

                                 •	 Chief Financial Officer to update information on the potential savings that
                                    could be achieved and upfront investment needed to exercise early buyout
                                    options in the remaining long-term debt and capital leases, and provide that
                                    information to the Congress;

                                 •	 Vice President for Marketing and Product Development to develop future
                                    performance improvement plans that focus on potential changes that are less
                                    dependent upon host railroad approval or increased federal subsidies;

                                 •	 General Counsel to develop a specific process to help determine if and when
                                    Amtrak should request that the Surface Transportation Board investigate sub-
                                    standard on-time performance caused by host railroads; and the

                                 •	 Vice President for Transportation to determine whether additional special
                                    trains could yield profits to help reduce federal subsidies.

                                 In commenting on a draft of the report, Amtrak’s Chief Financial Officer stated
                                 that it provided useful information upon which Amtrak management could take
                                 action, and agreed with the report’s recommendations.


20   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                                                       Significant Activities | Audits




Incurred-Cost Contract Audit: Bridge Construction Modification Settlement
Agreement Cost is Adequately Supported
(OIG-A-2012-002, November 7, 2011)

Amtrak management requested and we agreed to conduct this audit to ensure
that Granite Construction Northeast, Inc. (the contractor) had adequate docu-
mentation to support the claimed costs agreed to in the contract modification.
The objective of the audit was to determine if the contractor had adequate
documentation to support the $3.6-million settlement agreement cost for contract
modification 19.

In December 2002, Amtrak entered into a contract to reconstruct and upgrade
the ventilation shaft facilities servicing the four East River tunnels in Long Island
City, New York. The reconstruction required the contractor to temporarily re-
route electric power to ensure continued operation of Long Island Rail Road train
service. To temporarily reroute electric power, the contractor erected a tempo-
rary utility bridge. Contract modification 19 was to cover the costs associated
with construction of a temporary utility bridge necessary to complete the overall
project.

Our analysis of the documentation supporting the original $5.3-million claim
showed that the $3.6-million settlement agreement amount was adequately
supported. We questioned $1,082,043 of the $5,268,581 claim, but the resulting
supported amount exceeded the $3.6-million settlement amount. The contractor
adequately supported the $3.6-million settlement amount. Amtrak management
agreed with the report conclusion.


Wireless Network Security: Internal Controls Can Be Improved
(OIG-A-2012-003, December 7, 2011)

The Office of Inspector General conducted an audit of Amtrak’s wireless network
security program. Our objectives were to (1) assess the adequacy of Amtrak’s
internal controls for wireless network security, and (2) assess the adequacy of
Amtrak’s wireless network security policies.

Amtrak has installed wireless networks to allow its employees and contractors to
connect their laptops to Amtrak networks where wired networks are difficult and
costly to implement. Wireless connections provide an economical and flexible
solution to accessing corporate systems and information.




                         Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   21
Significant Activities | Audits




                                 While Amtrak’s Office of Information Security has generally taken adequate
                                 measures to ensure that the company’s wireless networks are secure and protect
                                 company information, some internal control weaknesses related to the wireless
                                 security program exist, along with some gaps in wireless security policies. These
                                 conditions occurred mainly due to weaknesses in oversight, policy enforcement,
                                 and the original security system design, as well as the lack of routine policy
                                 updates. The security control weaknesses related to encryption, passwords, and
                                 naming convention leave Amtrak information at risk of unauthorized access,
                                 modification, or destruction. As our audit progressed, we discussed these findings
                                 with Amtrak management officials, who agreed and have begun taking corrective
While Amtrak has taken           action. While we did not find any evidence of security breaches of the wireless
adequate measures                network, the weaknesses we noted represent security vulnerabilities and increase
to secure its wireless           the risk of an undetected penetration of the network. Amtrak management
networks, some internal          agreed with our findings and recommendations and the planned actions identified
weaknesses and policy            by Amtrak are responsive to our recommendations.
gaps exist. Weaknesses
relate to areas including
                                 On-Time-Performance Incentives: Inaccurate Invoices Were Paid Due to
encryption and                   Weaknesses in Amtrak’s Invoice-Review Process
passwords, and leave
                                 (OIG-A-2012-004, February 15, 2012)
Amtrak vulnerable to
unauthorized access or           OIG initiated this audit because of previously identified control weaknesses and
worse. Amtrak is taking          the significant number of dollars associated with Amtrak’s on-time-performance
actions to address these         incentive payments. Under an operating agreement with BNSF Railway, Amtrak
issues.                          pays BNSF incentives to facilitate the on-time-performance of Amtrak trains. The
                                 objectives of this audit were to (1) determine whether BNSF Railway complied
                                 with the operating agreement in calculating on-time-performance incentives
                                 invoiced to Amtrak from May 2002 through June 2006, and (2) evaluate the
                                 adequacy of Amtrak’s controls and processes for reviewing on-time-performance
                                 incentive invoices.

                                 BNSF inconsistently or inappropriately applied provisions of the operating
                                 agreement with Amtrak, causing invoices to be overstated. Our review of 50
                                 months of BNSF incentive invoices from May 2002 through June 2006 found that
                                 BNSF overbilled Amtrak $9,151,451, almost 17 percent of the nearly $55 million in
                                 on-time-performance incentives invoiced and paid.

                                 Over time, our office has identified approximately $36 million in overpayments
                                 and potential recoveries for audit periods ranging between 1993 and 2006,
                                 including over $9.1 million identified in this report. The $36 million includes at
                                 least $5.7 million in overpayments that have already been collected.




22   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                                                       Significant Activities | Audits




              Amtrak Board Chairman Thomas Carper addresses OIG staff at All-Hands Meeting




We are encouraged by the progress that has been made and the plans that
are in place for further action. Accordingly, we did not making any new
recommendations for improving invoice-review capabilities in this report.
However, we did recommend that Amtrak take action to recover the $9,151,451
that it overpaid BNSF. Amtrak management concurred with the recommendation
to take action to recover amounts with respect to overpayments made to BNSF.


Amtrak Invoice Review: Inaccurate Invoices Were Paid, But Progress Is
Being Made to Improve the Invoice-Review Process
(OIG-A-2012-005, February 16, 2012)

This audit was conducted because of previously identified control weaknesses
and the significant amount of money Amtrak expends to use tracks owned by
CSX Transportation, Inc. Under an operating agreement with CSX, Amtrak pays
CSX for charges incurred by CSX when Amtrak trains operate over its tracks. The
objectives of this audit were to (1) determine whether CSX complied with the
operating agreement when invoicing Amtrak for charges incurred for Amtrak


                         Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   23
Significant Activities | Audits




                                 trains operating over its tracks from June 1999 through March 2008, and (2)
                                 provide an update on Amtrak’s progress in improving its controls and processes
                                 in its review of monthly invoices.

                                 CSX invoice charges generally complied with the operating agreement for
                                 use of tracks and facilities and the provision of services provided to Amtrak.
                                 However, in seven of the 13 cost components selected for review, invoice
                                 amounts contained errors because they were not calculated in accordance
                                 with the operating agreement or were unsupported. Sample CSX invoices for
                                 the 106-month audit period (June 1999 through March 2008) disclosed CSX
                                                                          overbilling of $736,126, approximately 1
                                                                          percent of the more than $66 million paid
                                                                          for services during the sample months.

                                                                              The billing errors went undetected
                                                                              because, as previously reported, Amtrak
                                                                              did not have in place an adequate review
                                                                              process during that period. Amtrak is,
                                                                              however, making progress in developing
                                                                              its capabilities for reviewing host
                                                                              railroad invoices and addressing our
                                                                              prior recommendations. For example,
                                                                              Amtrak established the Host Railroad
                                                                              Invoice Administration group, which is
                                                                              reviewing select invoices using a limited
                                                                              set of factors. The Law Department is
                      AIG for Audits David Warren conferring with Los Angeles also working to negotiate settlements
                                          Senior Audit Director See See Young
                                                                              on overpayments that we previously
                                 identified. Amtrak plans to further improve the invoice review process
                                 through several initiatives, including developing policies and procedures for
                                 reviewing all invoices, creating job aids to facilitate invoice processing, and
                                 collecting outstanding overpayments identified in prior audit reports. While
                                 Amtrak continues to make progress in developing policies and procedures,
                                 training, and invoice reviews, the company has not yet implemented all of our
                                 recommendations.

                                 Over time, our office has identified approximately $37 million in overpayments
                                 and potential recoveries for audit periods ranging between 1993 and 2008,
                                 including over $700,000 identified in this report. The $37 million includes at least
                                 $5.7 million in overpayments that have already been collected.




24   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                                                       Significant Activities | Audits




We are encouraged by the progress that has been made and the plans that
are in place for further action. Accordingly, we did not make any new
recommendations for improving invoice-review capabilities in this report.
However, we did recommend that Amtrak take action to recover the $736,126
that Amtrak overpaid CSX. Amtrak’s Chief Financial Officer concurred with the
recommendation to take action to recover amounts with respect to overpayments
made to CSX.


Incurred-Cost Contract Audit: Contract Modification Charges for Extended
Indirect Overhead Costs Not Supported
(OIG-A-2012-006, February 17, 2012)

Amtrak management requested this audit to determine if Granite Construction
Northeast, Inc. (the contractor) had adequate documentation to support the
                                                                                                     Our analysis of the
extended indirect overhead costs included in contract modification 24 (extended
                                                                                                     documentation
overhead modification).
                                                                                                     supporting the extended
In December 2002, Amtrak entered into a contract for a firm-fixed amount                             overhead claim showed
totaling $66,340,000. As of December 31, 2011, contract modifications had                            that Amtrak paid the
increased the contract value to $84,548,927. The contract’s purpose was to                           contractor over $2 million
reconstruct and upgrade the ventilation shaft facilities servicing the four East                     for charges that were not
River tunnels in Long Island City, New York. This upgrade required a design                          adequately supported.
change to the original scope of work that extended the critical path of the project.

Our analysis of the documentation supporting the extended overhead claim
showed that the claim was not adequately supported. The extended overhead
modification allowed charges to be billed for extended indirect overhead costs
resulting from the increase in the contract’s period of performance. However,
the contractor claimed direct costs, general and administrative costs, and profit,
instead of submitting extended indirect overhead costs. Therefore, we concluded
that the contractor’s claimed costs were not allowable under the terms of the
contract modification. As a result, Amtrak paid the contractor $2,027,446 for
charges that were not adequately supported.

In summary, we recommended that Amtrak (1) work with the contractor to
establish an appropriate claim amount that is supportable and verifiable; and
(2) based on the results of that review, recover any unsupported portion of the
$2,027,446 paid to the contractor. Amtrak’s Chief Logistics Officer agreed with our
finding and recommendations.




                         Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   25
Significant Activities | Audits




                                           From left: IG Ted Alves and Deputy IG Tom Howard at the January 2012 All-Hands Meeting




                                 Amtrak Corporate Governance: Implementing a Risk Management
                                 Framework is Essential to Achieving Amtrak’s Strategic Goals
                                 (OIG-A-2012-007, March 30, 2012)
                                 Both federal agencies and publicly traded companies have established processes
                                 to manage risk in order to help achieve their strategic goals and objectives.
                                 Amtrak’s Board of Directors plays a key role in ensuring that the company
                                 accomplishes its stated goals in an efficient and effective manner. To better
                                 understand the company’s approach to managing risk, the Board asked that we
                                 audit Amtrak’s risk management process.

                                 Amtrak currently does not have a formal, coordinated, and systematic enterprise-
                                 wide framework for identifying, analyzing, and managing risk. As our work
                                 progressed, it became clear that Amtrak managers and executives do identify
                                 and mitigate risks. However, these efforts are often ad-hoc and narrowly
                                 focused on operational or compliance risks within individual departments. For
                                 example, Amtrak senior managers identify risks within their units based on their
                                 experience and knowledge of operations and establish controls to address these
                                 risks within their units. However, because the company has not established a risk
                                 management process, these risks were not identified using a formal organization-
                                 wide methodology. In addition, because Amtrak did not have a comprehensive


26   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                                                         Significant Activities | Audits




                                                                                                       Semiannual All-Hands
                                                                                                       Meetings provide all
                                                                                                       staff, including those in
                                                                                                       the field, an opportunity
          From left: AIG for Audits David Warren, AIG for Inspections & Evaluations Calvin Evans,      to hear updates from
                        General Counsel Colin Carriere, and AIG for Mission Support Ronald Stith
                                                                                                       OIG management and
                                                                                                       engage in give-and-take
                                                                                                       discussions concerning
risk management process, risk mitigation efforts may not be adequate to address
                                                                                                       OIG work.
root causes, and the Chief Executive Officer and Board may not be informed of
the risk and mitigation plans.

In discussing the results of our work with Amtrak senior executives, they agreed
with the need to improve their risk management practices. The company then
took initial steps toward addressing this issue by committing, in the
October 1, 2011, Strategic Plan, to establish an enterprise risk management
(ERM) framework that is based on industry best practices. This is an important
first step and shows a proactive approach on the company’s part.

Recognizing this commitment, we focused on identifying best practices that
could be adopted by the company. Our audit work noted that one of the keys
to success for some organizations was to build a comprehensive ERM process
using incremental steps rather than starting with an enterprise-wide effort. Given
the ad-hoc nature of Amtrak’s current risk management practices and control
activities, it appears that an incremental approach could provide the greatest
likelihood for implementation success. Further, focusing that approach on the
ongoing implementation of a selected goal within the strategic plan could be a
logical start to the implementation of an ERM framework.


                           Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012    27
Significant Activities | Audits




                                 Based on our judgment, together with input from Amtrak’s senior executives, we
                                 believe that Amtrak should begin the ERM process by applying its principles to
                                 Goal 5 of the Amtrak Strategic Plan—Financial and Organizational Excellence.

                                 We recommended that, in the long term, the Board of Directors and the
In the long term,
                                 President and CEO take action to develop and implement an ERM process for
                                 the entire organization, to include the Board of Directors, which is consistent
the Board…and the
                                 with the Committee of Sponsoring Organizations of the Treadway Commission
President…[should] take
                                 framework. We also recommended that in the near term, using an incremental
action to develop and
                                 approach, they should develop and implement an ERM process, to include the
implement an [enterprise         Board of Directors, that likewise focuses on Goal 5 of the Amtrak Strategic Plan,
risk management]                 Financial and Organizational Excellence.
process for the entire
organization.…In                 In commenting on a draft of this report, the Chairman of the Board of Directors
the near term,…they              and the President and CEO stated that it is imperative that the Board discuss our
should…[focus] on                recommendations with an answer to the time, resources, and priority needed to
Goal 5 of the Amtrak             make a commitment. Once the Board has had an opportunity to understand the
Strategic Plan, Financial        commitment this will take, guidance will be provided to management, and the
and Organizational               company will provide the OIG with more detailed information about Amtrak’s
Excellence.                      plan to implement ERM.




                                                                                                OIG All-Hands Meeting, January 2012




28   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                                                           Significant Activities | Audits




    Senior Director for Quality Assurance and Internal Affairs Nancee Needham conducts a training
                                  class on peer review and workpaper cross-indexing in Philadelphia

Ongoing Audits
During the next 6 months, the Office of Audits expects to complete work on the
following:

•	 A body of work examining the accuracy of invoices submitted by host rail-
   roads for earned incentives deriving from on-time performance and services
   to Amtrak. The invoices reviewed cover varying time frames.

•	 An examination of Amtrak’s oversight of independent public accountant se-
   lection and administration for reviewing financial statements.

•	 A pre-award review of a contractor’s price proposal for the purchase of 40 ad-
   ditional Acela coach cars.

•	 A review of Amtrak’s process, policies, and safeguards for undertaking pre-
   employment background investigations of prospective employees.

•	 A review of Amtrak’s oversight and control over the use of overtime.

•	 A review of the reasonableness of costs incurred on contracts under the
   American Recovery and Reinvestment Act, along with Amtrak’s review of
   contract invoices.

•	 An evaluation of implementation issues associated with the initial segment of
   Amtrak’s Strategic Asset Management program—one of the company’s most
   significant and expensive information technology enhancement efforts.


                            Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   29
                                                                                                   Lincoln Service in Logan County, IL




30   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                       Significant Activities | Inspections and Evaluations




Significant Activities:
Inspections and Evaluations

During this reporting period, OIG issued two evaluation reports,

summarized below. The full reports may be accessed through our website:

www.amtrakoig.gov.

                                                                                                      Weak controls over the
Human Capital Management: Controls Over the Use of Temporary
Management Assignments Need Improvement                                                               implementation of the
                                                                                                      [temporary management
(OIG-E-2012-009, March 28, 2012)
                                                                                                      assignment] policy,
Amtrak employs about 3,100 management and 17,900 union workers, and often                             coupled with inconsistent
uses union employees to temporarily fill management positions. Since August                           practices for paying back
2001, 1,476 Amtrak union employees have temporarily filled these positions.                           wages, may have serious
Amtrak’s use of union workers to fill temporary management positions is                               financial consequences
important because it allows the company to fill critical management vacancies                         for Amtrak. Due to weak
in a timely way, and provides opportunities for union workers to develop their                        controls leading to
management and leadership skills, which could help move them into permanent                           abusive and inconsistent
management positions. To the extent that Amtrak does not properly manage                              management practices
the process to fill these positions, it risks not having appropriate management                       in the past, Amtrak now
oversight of its activities, inefficiencies in operations, and missed opportunities to
                                                                                                      faces a challenging issue:
develop future managers and leaders.
                                                                                                      determining whether it
                                                                                                      should invest the time
We initiated this evaluation after receiving a complaint from a union employee
                                                                                                      and resources necessary
who had worked in a temporary management assignment (TMA) position. Our
report discussed whether Amtrak (1) consistently managed employees in TMA                             to recover back pay
during the labor negotiation period, (2) appropriately managed TMA labor rates                        improperly paid to some
after negotiations concluded, and (3) is properly managing TMA employees                              employees, and provide
today. We focused on employees in Amtrak’s Transportation Department,                                 additional pay to others.
which comprises about 9,000 (43 percent) of Amtrak’s management and union
employees.

Amtrak inconsistently managed Transportation employees in temporary
management positions between August 2001 and May 2008. Weak controls over
implementation of the TMA policy enabled some field managers to circumvent
the policy, which led to 177 employees exceeding the 180-day limit on TMAs and
the improper coding of 57 employees in the payroll system. This had financial


                         Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   31
Significant Activities | Inspections and Evaluations




                                                  AIG for Audits David Warren and AIG for Inspections and Evaluations Calvin Evans

                                 consequences for Amtrak, with these 57 employees potentially being paid for
                                 some hours they may not have worked. Further, 47 of these employees likely
                                 received some additional back pay for this period, although they were ineligible
                                 to receive it because they were working in temporary management positions.

                                 Amtrak also did not adjust the rates of pay for employees who were properly
                                 recorded in TMA positions after the labor negotiations concluded in 2008.
                                 Because the 2001 TMA pay rates were not updated until July 1, 2009, retroactive
                                 union wages exceeded the rate of pay for TMA positions beginning July 1, 2005.
                                 Consequently, during this period, employees in temporary management positions
                                 received less pay than they would have received if they had remained in their
                                 union positions.

                                 Transportation’s management of employees in temporary management positions
                                 has improved since 2007, but several problems persist. Transportation initiated
                                 several controls to ensure that employees are properly promoted to TMA
                                 positions, to limit the improper use of certain job codes, and to ensure that
                                 employees do not exceed the 180-day limit for these assignments. However,
                                 some employees’ assignments continue to exceed 180 days, in part because
                                 Transportation and Human Resources do not reconcile data on employees in
                                 TMA positions. Additionally, some TMA employees are still not properly coded in
                                 the payroll system.


32   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                      Significant Activities | Inspections and Evaluations




Weak controls over the implementation of the TMA policy, coupled with
inconsistent practices for paying back wages, may have serious financial
consequences for Amtrak. Due to weak controls leading to abusive and
inconsistent management practices in the past, Amtrak now faces a challenging
issue: determining whether it should invest the time and resources necessary
to recover back pay improperly paid to some employees and provide additional
pay to other employees in temporary management positions between July 2002
and June 2009. This would be necessary to comply with the intent of the TMA
policy—to pay a premium rate to TMA employees. As some of these weaknesses
continue today, Amtrak’s ability to properly manage its workforce is limited.
Moreover, if these weaknesses are not addressed, Amtrak may face additional
financial consequences and pay inequity among employees in the future, when
the current round of labor negotiations concludes.

To address the pay issues stemming from weaknesses in the management of TMA
employees and avoid these problems in the future, we recommended that the


•	 Chief Financial Officer determine whether his office should attempt to recov-
   er improper payments made to employees;

•	 Chief Financial Officer and Chief Human Capital Officer determine whether
   employees who were properly coded in temporary management positions
   should receive retroactive pay adjustments;

•	 Chief Human Capital Officer strengthen the management of TMA employees
   by instituting a process for reconciling monthly reports of the number of TMA
   employees;

•	 Chief Human Capital Officer improve workforce planning policies and pro-
   cedures to prevent managers from using TMA positions to inappropriately
   augment management staff; and

•	 Chief Human Capital Officer institute a process to review the TMA policy an-
   nually and update the TMA rates of pay, as appropriate, to reflect increases in
   union rates of pay.

Management generally agreed with our recommendations, and is taking action to
strengthen controls over TMA employees going forward. However, management
determined that it would not take action to recover compensation or address past
pay inequities for some employees who worked in TMA positions.




                        Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   33
 Significant Activities | Inspections and Evaluations




                                 Acela Car Purchase: Future Revenue Estimates Were Initially Overstated
                                 (OIG-E-2012-010, March 28, 2012)

                                 Acela Express trains provide high-speed, business and first-class intercity rail
                                 transportation on the Northeast Corridor between Washington, D.C.; New York
Amtrak assumed that a
                                 City; and Boston, making 188 trips between these cities during a normal week.
train that was currently
                                 Acela is Amtrak’s single largest source of revenue, generating about $492 million
sold out…on any day,
                                 (26 percent) of Amtrak’s overall ticket revenue of about $1.9 billion for Fiscal Year
on any station-to-station        (FY) 2011 from about 3.4 million riders. Amtrak expects the demand for Acela to
segment…would be sold            continue to increase, with about 47.8 million potential riders between FY 2012 and
out in the future every day      FY 2023 generating about $7.8 billion in potential revenue.
it ran for the entire length
of its trip and, therefore,      Amtrak is concerned that it will not be able to meet this demand with Acela’s
could not accommodate            current passenger capacity and, therefore, plans to increase the capacity of its
any additional riders….This      Acela trains. Amtrak plans to increase the business class capacity of each train by
assumption…significantly         50 percent by adding two new business class cars to each train in FY 2015. As of
inflated the estimate of         January 12, 2012, Amtrak expected that it would cost about $350 million to procure
revenue that would be            the 40 new cars, upgrade maintenance facilities to accommodate the longer trains,
                                 and acquire spare parts for the new cars. This report discussed our analysis of the
captured by the new cars
                                 revenue projections contained in Amtrak’s business case supporting the decision to
($1.05 billion), overstating
                                 acquire the 40 new cars.
[it] by about $425 million.

                                 In its August 2011 projection, Amtrak overestimated the revenue that the 40 new
                                 cars would capture. In preparing the business case for the procurement of the
                                 new cars, Amtrak estimated that these cars would enable it to capture about $1.05
                                 billion more in revenue than it could with the current Acela trainsets between FY
                                 2015 and FY 2023. In developing this estimate, Amtrak assumed that a train that
                                 was currently sold out, on average, on any day, on any station-to-station segment of
                                 a trip, would be sold out in the future every day it ran for the entire length of its trip
                                 and, therefore, could not accommodate any additional riders. According to Amtrak
                                 officials, the assumption was made to simplify their analysis, but we questioned the
                                 validity of the assumption and undertook our own analysis to determine the effect
                                 of that assumption on Amtrak’s revenue estimate.

                                 This assumption, according to our analysis, significantly inflated the estimate of the
                                 revenue that would be captured by the new cars. Using Amtrak’s available data on
                                 actual ridership on Acela trains during the 12-month period between July 1, 2010
                                 and June 30, 2011, we found that Amtrak’s simplifying assumption significantly
                                 overestimated the number of trains that would be sold out in the future, thereby
                                 underestimating the number of potential passengers who could be accommodated
                                 by the current Acela trainsets. This resulted in Amtrak’s overstating the revenue
                                 that would be captured by the new cars by about $425 million.


34    Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                      Significant Activities | Inspections and Evaluations




We discussed our methodology and preliminary findings with Amtrak officials,
and Amtrak eliminated its simplifying assumption and recalculated its revenue
estimate based on actual ridership for individual trains in a manner similar to
ours. We recommended that Amtrak develop a standard framework for explicitly
incorporating capacity constraints into future revenue estimates; ensure that
the revised revenue projections and other financial data for the new cars are
integrated into the next version of the Five Year Financial Plan; and integrate
the revised retirement date for the current Acela trainsets and new cars into
the next revision of Amtrak’s Fleet Strategy. Management agreed with our
recommendations and committed to incorporating capacity constraints, as
appropriate, into future revenue estimates for major procurements of equipment.
Management also stated that the results of the business case for the purchase of
the 40 Acela cars have been included in budgeting and planning documents.


Ongoing Evaluations
During the next 6 months, the Office of Inspections and Evaluations expects to
complete work on the following:

•	 An evaluation of Amtrak’s implementation of Positive Train Control, com-
   munications systems designed to prevent train collisions, derailments related
   to excessive speed, incursions into established work zones, and movement
   through main line switches in the improper position.
    
•	 A follow-up evaluation of Amtrak’s mechanical maintenance operations,
   examining progress made since our 2005 review, which recommended the
   adoption of reliability-centered maintenance to improve effectiveness and
   efficiency.




                        Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   35
                                                                                                       Amtrak California, Crockett, CA




36   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                                             Significant Activities | Investigations




Significant Activities:
investigations

During this reporting period, the Office of Investigations hired a special

agent-in-charge and two special agents for the Chicago office, as well

as two new special agents in Los Angeles and one special agent for its

Washington, D.C., headquarters. These new employees all bring substantial

expertise in white collar crime investigations from years of experience in the                        A former Amtrak OIG
                                                                                                      contractor illegally
federal inspector general community or with other federal law enforcement/                            traveled on Amtrak…12
                                                                                                      times; the total value of
investigative agencies.
                                                                                                      [the trips] was $2,251.


Settlement Reached With Amtrak Contractor
An OIG investigation resulted in the United States Attorney’s office for the
District of Vermont entering into a settlement with a Jacksonville, Florida-based
railroad contractor. The settlement relates to the contractor’s failing to perform
on contractual obligations for service on the Vermonter train from July 1, 2000
through December 31, 2009. The Department of Justice was prepared to initiate a
civil action charging that the contractor submitted false claims. The case involved
a requirement that the contractor attach the trains to external power sources
during periods when the trains were in St. Albans, Vermont. The contractor’s
actions led to increased fuel costs to Amtrak. Under the settlement agreement,
the contractor paid $100,000 to resolve its civil liability, of which $97,000 was
returned to Amtrak.


Former Amtrak Contractor Used Counterfeit Train Voucher
Using a counterfeit travel voucher, a former Amtrak OIG contractor illegally
traveled on Amtrak over a period of 14 months. Investigation determined that
from April 2010 through May 2011, the contractor took 12 trips with a total value
of $2,251. The former contractor surrendered in response to an arrest warrant
issued in October 2011 by the Superior Court of the District of Columbia on
a charge of First Degree Felony Fraud. In November 2011, the United States
Attorney’s Office for the District of Columbia deferred prosecution for 4 months,


                          Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   37
Significant Activities | Investigations




                                 during which time the former contractor could not violate any law or be arrested.
                                 The former contractor was also required to serve 32 hours of community service
                                 and make restitution to Amtrak in the amount of $2,251.


                                 Former Amtrak Contractor Arrested for Theft
                                 A former Amtrak contractor was arrested for illegally using an Amtrak Business
                                 Rail Pass to obtain over 50 tickets during and after his assignment with Amtrak.
                                 The contractor had been issued a Business Rail Pass for travel on official
                                 company business, but he used it for personal travel over a 14-month period. The
                                 lost revenue associated with this travel was $8,548. Charges are pending.


                                 Amtrak Ticket Agent Terminated for Providing False Information on
                                 Employment Application
OIG investigation
                                 An on-duty Amtrak ticket agent was arrested in April 2011 based on a warrant
determined that over
                                 issued in Baltimore County, Maryland. The warrant was for failure to appear on
$98,000 was spent                a previous charge of obtaining money under false pretenses. The Amtrak Police
for three meetings…              Department reported to OIG that a routine criminal record check revealed that
related to an Amtrak             the ticket agent also had a 1988 arrest and conviction for attempted theft. OIG
national safety promotion        investigation disclosed that the ticket agent falsely represented on his 2010
program.                         Amtrak employment application that he had never been convicted of a crime.
                                 An October 2011 disciplinary hearing determined that the ticket agent had
                                 violated the Amtrak Standards of Excellence pertaining to trust and honesty. The
                                 employee was dismissed from the company in November 2011.


                                 Amtrak Program Did Not Properly Capture Costs
                                 OIG investigated allegations related to an Amtrak national safety promotion
                                 program in which members held several conferences at a hotel/casino. On at least
                                 one occasion, attendees utilized an Amtrak coach car added to a train for their
                                 sole use traveling to and from the hotel/casino, at a cost of $5,080. The company
                                 failed to account for that cost. Investigation determined that over $98,000 was
                                 spent for three meetings. OIG made recommendations to Amtrak management
                                 related to our finding that a lack of cost accounting internal controls existed
                                 concerning this safety program.




38   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                                           Significant Activities | Investigations




                                                         AIG for Investigations Adrienne Rish

Amtrak Employees Failed to List Felony Convictions on Employment
Applications
OIG and the Amtrak Police Department and Amtrak management coordinated
on an investigation of illegal drug and alcohol use on Amtrak trains. The
investigation disclosed that several on-board service employees failed to list
felony convictions as required on their employment applications and that
background checks were not conducted on some on-board service employees.
OIG made recommendations to Amtrak management in the areas of random drug
testing and more robust background security screening.


Amtrak Procurement Policies Violated
Two separate investigations disclosed serious abuses of Amtrak procurement
and contract policies. In one matter, several individuals and entities acted
inappropriately in concerted efforts to influence the procurement process and
decisions on a multi-year contract involving expenditures in excess of $800
million over a 3-year period. Another investigation disclosed that Amtrak’s
business practice of limiting the tenure of independent contractors to 2 years
was circumvented. In this case, an independent contractor was retained for 7
years and was, in fact, retained even after a request to hire the contractor had
been denied by the Amtrak Independent Contractor Review Panel. The method
of paying this contractor, using multiple payment requests under $5,000 each,
was also found to be questionable. Both matters were referred to management,
resulting in administrative actions and corporate sanctions.




                        Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   39
Significant Activities | Investigations




                                  Memorandum of Understanding Signed with Amtrak Police Department
                                  During this reporting period, OIG and the Amtrak Police Department signed a
                                  memorandum of understanding to ensure cooperation, maximize economy and
                                  efficiency, and delineate areas of investigative responsibility.


                                  Fraud Awareness Training
                                  OIG’s Office of Investigations, along with its Office of Audits, continued a
OIG’s Office of Investiga-        comprehensive program of delivering fraud awareness briefings to Amtrak
tions, along with its Office      management and operations and support personnel. This proactive training is
of Audits, continued a            designed to help Amtrak managers, other employees, and contractors recognize
comprehensive program             fraud indicators and report suspicions of fraud to OIG. The briefings are also
of delivering fraud aware-        designed to educate Amtrak management on the role of OIG and to foster a
ness briefings to 512             partnership between OIG and management.
Amtrak management and
operations and support            During this reporting period, 32 fraud awareness presentations were presented to
personnel. This proactive
                                  a total of 512 Amtrak employees.
training is designed to
help Amtrak managers,
other employees, and
                                  OIG Investigations Offices
contractors recognize             OIG staffed investigations offices in Los Angeles and Chicago. In addition to
fraud indicators and              these offices, OIG now has special agents located in Washington, Philadelphia,
report suspicions of fraud        New York, and Boston. Our investigative resources are now better aligned
to OIG.                           geographically to the regions and key operational facilities of Amtrak nationwide.


                                  OIG Revenue Protection Unit Deactivated
                                  The OIG Revenue Protection Unit was deactivated and the responsibility
                                  and function returned to Amtrak. This function was determined to be more
                                  appropriately an operational responsibility of Amtrak rather than an oversight
                                  function of OIG. The resources previously committed to this unit have been
                                  redirected to other investigative priorities.




40    Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                   Significant Activities | Investigations




      Track crossover with concrete cross-ties, Ravensworth, VA (CSX)




Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   41
                                                                                                  Pere Marquette in western Michigan




42   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                            Ongoing Actions To Strengthen OIG Operations




Ongoing Actions to Strengthen
OIG Operations

An independent, professional, and effective working relationship between

OIG and Amtrak management is critical to our ability to perform the type of

oversight envisioned in the Inspector General Act of 1978. Our relationship

policy with management meets the letter and the spirit of the IG Act.

We also highlight other ongoing actions designed to bring us closer to the

goal of being a Model OIG.




Office of Mission Support
New Name—New Mission. With the hiring of a new Assistant Inspector General,
the Office of Administrative Services was changed to the Office of Mission
Support. The purpose of Mission Support is to provide stellar service to all
areas of Amtrak OIG, which includes Audits, Inspections and Evaluations,
Investigations, and General Counsel.


Human Capital Management/Recruitment
Human Capital Management continues to seek highly qualified personnel to
join the OIG team. Current vacancies include criminal investigators in the
Central (Chicago) and Western (Los Angeles) regions; a senior auditor, auditor,
senior principal operations and principal operations analysts; and a criminal
investigator/computer forensics analyst in the Eastern region (Philadelphia).

During this reporting period, the Human Capital Management team hired or
promoted well-qualified personnel to fill critical positions:




                        Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   43
Ongoing Actions To Strengthen OIG Operations




                                 	         Audits

                                 	         Audit Manager, Washington, D.C.
                                      ­    The incumbent was promoted to this new role in March 2012. She began
                                           her career as an auditor with the Environmental Protection Agency and
                                           has been a senior audit manager at KPMG. She is a Certified Public
                                           Accountant.
                                      ­
                                      ­    Audit Manager, Philadelphia
                                      ­    The incumbent began with OIG in February 2012, with 9+ years of experi-
                                           ence at the Department of Defense OIG. He holds a master’s degree from
                                           Georgetown University.
OIG hired (16) or                     ­
promoted (2) a total                  ­    Senior Auditor, Washington, D.C.
of 18 staff during this               ­    This individual joined OIG in March 2012. He began his career as an intern
                                           with the Government Accountability Office (GAO) and possesses a total
reporting period, all
                                           of 12+ years’ experience, the last 5 years in auditing with the Special
possessing considerable
                                           Inspector General for Iraq Reconstruction. He holds a master’s degree in
relevant and timely
                                           international affairs from Georgetown University.
experience.
                                      ­
                                      ­    Senior Auditor, Philadelphia
                                      ­    This individual joined OIG in March 2012, and brings 35+ years of auditing
                                           and leadership experience, most recently as a forensic auditor with the
                                           EPA OIG.
                                      ­
                                      ­    Senior Auditor, Philadelphia
                                      ­    The incumbent was promoted into this new role in February 2012 and has
                                           15+ years’ auditing experience. She began her career as an auditor for the
                                           City of Philadelphia Controller’s Office and then continued in auditing for
                                           the city’s OIG. Since 2008 she has been an auditor for Amtrak OIG. She is
                                           a Certified Public Accountant.
                                      ­
                                      ­    Auditor, Washington, D.C.
                                      ­    The incumbent joined OIG in March 2012 and brings 4+ years of experi-
                                           ence in financial and performance auditing. He previously worked at
                                           GAO, and holds a master’s degree in accountancy from the University of
                                           Alabama. He is a Certified Public Accountant.




44   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                             Ongoing Actions To Strengthen OIG Operations




	       Inspections and Evaluations

    ­   Lead Evaluator, Washington, D.C.
    ­   The incumbent joined us in January 2012, bringing 35+ years of experi-
        ence. He began his auditing career at GAO, then became Chief Auditor at
        the Air Force Audit Agency. He most recently served as an audit manager
        at the U.S. Postal Service OIG. The incumbent holds a master’s degree
        from Auburn University.
    ­
    ­   Evaluator, Washington, D.C.
    ­   The incumbent joined us in February 2012, with 5+ years of experience
        with program and data analyses. He began his career at Syracuse Univer-
        sity as part of the National Security Studies Executive Education Pro-
        grams, then joined the Special Inspector General for the Troubled Assets
        Relied Program as a program analyst. He most recently served as a senior
        program manager at the Special Inspector General for Iraq Reconstruc-
        tion. He holds a master’s degree from Syracuse University.
    ­
    ­   Evaluator, Washington, D.C.
    ­   The incumbent joined us in March 2012, bringing to Amtrak OIG 5+ years
        of experience in performance auditing at GAO. She holds a master’s de-
        gree from Mississippi State University and is a Certified Internal Auditor
        and Certified Fraud Examiner.
    ­
    ­
	       Investigations

    ­   Special Agent-In-Charge, Chicago
    ­   The incumbent joined Amtrak OIG in October 2011, after serving as an
        Assistant Special Agent-in-Charge for the U.S. Postal Service OIG. He has
        25+ years of law enforcement experience within the accountability com-
        munity, as well as extensive leadership experience in the management/
        supervision of an investigative organization. He holds a master’s degree
        from National University.
    ­
    ­   Criminal Investigator/Desk Officer, Washington, D.C.
    ­   The incumbent joined OIG in March 2012 with 30+ years’ experience and
        has served in various leadership capacities, including as a United States
        Marshal for Washington, D.C., and Assistant Inspector General for Inves-
        tigations for the Department of Justice OIG. He has run his own business,
        consulting with both government and commercial entities. He holds a law
        degree from Howard University.


                         Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   45
Ongoing Actions To Strengthen OIG Operations




                                     ­
                                     ­    Criminal Investigator, Chicago
                                     ­    The incumbent joined OIG in January 2012 and has 24+ years’ experience
                                          as a law enforcement professional with the Federal Bureau of Investiga-
                                          tion. He was responsible for investigating complex white collar crime
                                          involving fraud and abuse within and against the federal government.
                                          He holds a master’s degree from the University of Connecticut.
                                     ­
                                     ­    Criminal Investigator, Chicago
                                     ­    The incumbent joined OIG in January 2012. He has 35+ years of experience
                                          in law enforcement, including 25+ years as a criminal investigator with
                                          inspectors general at the General Services Administration and the depart-
                                          ments of Transportation and Justice. He is an expert on white collar crime
                                          and contract fraud, and holds a law degree from DePaul University.
                                     ­
                                     ­    Criminal Investigator, Los Angeles
                                     ­    The incumbent began at OIG in January 2012. He has 30+ years of experi-
                                          ence in law enforcement with the Naval Criminal Investigative Service,
                                          beginning as a special agent in 1983 and becoming Assistant Special Agent-
                                          in-Charge in 1990. He most recently served as a special agent for the NCIS
                                          Economic Crimes Program in San Diego.
                                     ­
                                     ­    Criminal Investigator, Los Angeles
                                     ­    The incumbent started with OIG in November 2011. He has 30+ years of
                                          experience in law enforcement and began his career with the National
                                          Park Service, moving on to the State Department as a criminal investiga-
                                          tor/special agent, then to the Defense Criminal Investigative Service, where
                                          he advanced to the position of Resident Agent-in-Charge. He possesses
                                          extensive experience in white collar crime and fraud investigations. The
                                          incumbent received a master’s degree from Georgetown University.
                                     ­
                                     ­
                                	         Mission Support	

                                     ­    Assistant Inspector General
                                     ­    The incumbent joined OIG in November 2011, bringing 30+ years of ex-
                                          perience with the U.S. Postal Service OIG —including 14 years’ executive
                                          leadership experience. He has led all facets of administrative support func-
                                          tions, including Facilities, Safety & Security, Finance, Human Capital, In-
                                          formation Technology, and Procurement. He holds an MBA in finance from
                                          James Madison University, and is a Certified Public Accountant, Certified
                                          Fraud Examiner, and Certified Government Financial Manager.
                                     ­


46   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                            Ongoing Actions To Strengthen OIG Operations




   ­   Director, Information Technology
   ­   The incumbent joined us in February 2012 and brings 12+ years of in-
       formation technology experience, including 9 years with the USPS OIG,
       where he has most recently been the server architecture manager. He be-
       gan his career in 1999 as a local area network manager, and is a Microsoft
       Certified Professional and Microsoft Certified Systems Administrator.
   ­
   ­   Senior Budget Analyst
   ­   The incumbent joined us in February 2012 and has over 12 years of
       experience, which includes 9 years with the USPS OIG, where she most
       recently served as a budget/program analyst. She is a Certified Project
       Management Professional and a Certified Federal Financial Manager in
       both budget and financial management.
   ­
   ­
NAPA Recommendations
In August 2010 the National Academy of Public Administration (NAPA) issued
its organizational assessment of Amtrak OIG. Since that time, we have been
working to implement its 41 recommendations for operational improvement
in eight specific areas. As discussed in our last Semiannual Report, teams to
carry out implementation roadmaps have been working in the following six
areas: (1) internal communications, (2) external communications, (3) quality and
timely work processes, (4) work planning and prioritization, (5) performance
measurement, and (6) independence. In addition, action has been taken in the
areas of policy management and updates and human capital management.

Actions taken during this semiannual reporting period include the following:

•	 Internal Communications. Business cards were provided to all OIG staff with a
   new branding logo, and an OIG photo directory was provided to all staff.

•	 External Communications. A customizable OIG 101 briefing was developed
   for use with new executives (which has been presented) and outside
   stakeholders; fraud awareness briefings were delivered to over 500
   employees; a consistent design identity/brand was developed and is now
   in use on all OIG products; and a stakeholder identification and outreach
   matrix was developed.




                        Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   47
Ongoing Actions To Strengthen OIG Operations




                                  •	 Quality and Timely Work Processes. An analysis of the December 2011 Yellow
                                     Book revisions has been completed and the revisions have been reflected in
                                     the new draft audit and inspections/evaluations policy manual; existing audit
                                     policies are being revised and incorporated into a new Amtrak OIG audit/
                                     inspections and evaluations policy manual; interim revised audit policies and
                                     recommendations to improve quality of our work are routinely communicat-
                                     ed to staff through Quality Quick Hits. Audit staff are briefed at each biweekly
                                     staff meeting on quality assurance issues; the entire audit and inspection/
                                     evaluation headquarters and field office staff has received nearly 40 hours
                                     of training this reporting period on TeamMate, 2011 Yellow Book revisions,
                                     working paper preparation, cross-indexing working papers and reports, and
                                     the external peer review process; and training for the next period is being pre-
                                     pared on evidence and internal controls and the new audit/evaluations policy
                                     manual.
During the past 6
months, teams have
                                       In addition, Investigations now routinely engages Audits and Inspections and
been working hard to
                                       Evaluations to coordinate on areas of mutual interest; it is also increasing its
carry out roadmaps to                  use of newer technological tools. Further, the Amtrak Investigation Manage-
implement 41 recom-                    ment System is now widely used to document, track, and report case prog-
mendations from the                    ress. And finally, revised hotline reporting protocols are in place and the OIG
National Academy of                    hotline is more adequately staffed, with all complaints receiving supervisory
Public Administration’s                review to ensure proper handling.
2010 OIG organizational
assessment.                       •	 Work Planning and Prioritization. To consistently identify high-value topics for
                                     audits and evaluations, the team researched best practices and the various
                                     planning processes followed by other inspectors general. It then developed a
                                     five-step work planning process best suited to the needs of Amtrak OIG. The
                                     process was pilot-tested in developing the FY 2012 Audit, Inspection, and
                                     Evaluation Plan. Based on lessons learned and stakeholder feedback, we will
                                     revise the existing audit and evaluation planning policy. The new policy and
                                     process are expected to be adopted, communicated, and utilized in develop-
                                     ing the FY 2013 plan and beyond.

                                  •	 Performance Measurement. Draft performance measures for each of the OIG
                                     Strategic Goals were developed. These draft goals are in the process of being
                                     revised, based on feedback, for final approval. Once approved, the team will
                                     identify the methods to be used to capture the necessary data. As part of this,
                                     the team has already started developing a survey to obtain employee input for
                                     many of the measures being developed.




48    Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                             Ongoing Actions To Strengthen OIG Operations




•	 Independence. The team reviewing independence issues was organized before
   the NAPA recommendations were formalized and the team continued work-
   ing on action items throughout the NAPA process. The Independence Team
   identified 17 action items to improve our processes, policies, and management
   practices. As of March 31, 2012, all of these action items were completed.

•	 Policy Management and Updates. A new process was established and implement-
   ed for policy development, review, and update. All policies were reviewed, up-
   dated, and distributed to staff in FY 2011, and policies will be updated annual-
   ly. All policies for audits and for inspections and evaluations are being revised
   and combined into a new Audits/Inspections and Evaluations Manual. Updates
   on revised Yellow Book Standards (2011) have been completed and training
   has been provided to staff.

•	 Human Capital Management. We have created a process to attract and retain
   high-performing employees; the process includes reviewing and revising
   all job titles and job descriptions for consistency. We have also developed
   employee training plans and new performance management plans; the per-
   formance management plans have been implemented to link individual per-
   formance to OIG’s overarching strategic goals; they are likewise allied with
   Amtrak’s goals.

   In the investigative area, new investigators have been hired nationwide, with
   extensive experience in complex fraud. Further, low-impact investigations
   have been eliminated; new investigations will focus on areas likely to have
   significant impact on the company. In fact, the office is increasingly identifying
   areas in which proactive investigations can be initiated. And new standards
   and procedures are ensuring efficient case openings, investigative progress,
   and timely case closings.




                         Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   49
                                                                        Michigan Service train Blue Water BTL, Battle Creek, MI




50   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                                                                    Performance Measures




FY 2012 Performance Measures,
10/1/2011—3/31/2012

 Audit/Evaluation Results                                           Judicial and Administrative Actions	
 Reports/Evaluations Issued                                 9       Arrests                                                 2
 Costs Questioned/Unsupported/                                      Indictments                                             1
 Funds to be Put to Better Use                 $11,915,023
                                                                    Pretrial Diversion                                      1
 Management Decisions
                                                                    Criminal Referrals Accepted                             2
 to Seek Recoveries                                         3
                                                                    Criminal Referrals Declined                             1
                                                                    Administrative Actions                                  1

 Investigative Results
                                                                    Investigative Workload
 Financial Impact
                                                                    Cases Open on 10/1/2011                               62
 Recoveries/Restitution                           $102,251
                                                                    Investigations Opened                                 28
                                                                    Investigations Closed                                 36
 Cases Opened
                                                                    Cases Open on 3/31/2012                               54
 Abuse of Position                                          1
 Conflict of Interest                                       1
 Theft/Embezzlement                                         3
                                                                     Hotline Contacts/Referrals
 Time and Attendance Fraud                                  1
                                                                     Sent to Amtrak Management                           137
 Cost Mischarging                                           1
                                                                     Request for Assistance by                              2
 Procurement Irregularity                                   2        Law Enforcement Agency
 Fraud                                                      6        Preliminary Investigation Opened                      10
 False Statements                                           1        No Action Warranted                                   30
 Healthcare Fraud                                           3        Total                                               179
 Contract Fraud                                             1
 Bribery                                                    1
 Environmental Crimes                                       1        OFFICE OF GENERAL COUNSEL
 Other Federal Crimes                                       1        Advisory Functions
 Policy Violation                                           4        FOIAa Requests Received                                4
 Mismanagement                                              1        FOIA Appeals Received                                  1
                                                                     FOIA Requests Processed                                2
                                                                        Referred to Amtrak                                  1
                                                                        Response Pending                                    1
                                                                     Legislation Reviewed                                   1
                                                                     Regulations Reviewed                                   0




a Freedom of Information Act.




                           Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   51
Appendix

     Appendices
     Appendix 1

     Office of Inspector General
     Reporting Period: 10/1/2011–3/31/2012



                                   Audit reports issued with questioned Costs
      Audit Reports                                                  Number       Questioned Costs          Unsupported Costs
      For which no management decision made by                              0            $         0              $          0
      commencement of the reporting period
      Reports issued during the                                             3            9,683,675                    2,231,348
      reporting period
      For which a management decision was made                              3            9,683,675                    2,231,348
      during the reporting period
      Dollar value of recommendations agreed to                             3            9,683,675                    2,231,348
      by management
      Dollar value of recommendations not agreed to                         0                      0                         0
      by management.
      For which no management decision has been                             0        	             0              	          0
      made by the end of the reporting period




52   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                                                                      Appendix




Appendix 2

Office of Inspector General
Reporting Period: 10/1/2011–3/31/2012



          Audit reports issued with Funds to be put to better use
 Audit Reports                                               Number                    Dollar Value
 For which no management decision made by                            0                           $0
 commencement of the reporting period
 Reports issued during the                                           0                            0
 reporting period
 For which a management decision was made                            0                            0
 during the reporting period
 Dollar value of recommendations agreed to                           0                            0
 by management
 Dollar value of recommendations not agreed to                       0                            0
 by management.
 For which no management decision has been                           0             	              0
 made by the end of the reporting period




         Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   53
Appendix

APPENDIX 3

Office of Inspector General
Reporting Period: 10/1/2011–3/31/2012


                             Detailed Listing of All Issued Audit/Evaluation Reports
 Date          Report                                           Report                Questioned      Unsupported     Funds to be Put
 Issued        Number        Report Title                       Category                   Costs            Costs       to Better Use
 10/26/2011    OIG-A-        Passenger Rail Investment and      Train                $          0     $          0                $0
               2012-001      Improvement Act of 2008:           Operations
                             Amtrak Has Made Good               and Business
                             Progress, but Continued            Management
                             Commitment Needed to
                             Fully Address Provisions
 11/07/2011    OIG-A-        Incurred-Cost Contract Audit:      Acquisition                     0                0                 0
               2012-002      Bridge Construction Modifica-      and
                             tion Settlement Agreement          Procurement
                             Cost is Adequately Supported
 12/07/2011    OIG-A-        Wireless Network Security:         Information                     0                0                 0
               2012-003      Internal Controls Can Be           Technology
                             Improved
 02/15/2012    OIG-A-        On-Time Performance Incen-         Acquisition           9,151,451                  0                 0
               2012-004      tives: Inaccurate Invoices Were    and
                             Paid Due to Weaknesses in          Procurement
                             Amtrak’s Invoice-Review
                             Process
 02/26/2012    OIG-A-        Amtrak Invoice Review:             Acquisition              532,224            203,902                0
               2012-005      Inaccurate Invoices Were Paid,     and
                             But Progress Is Being Made         Procurement
                             to Improve the Invoice-Review
                             Process
 02/17/2012    OIG-A-        Incurred-Cost Contract Audit:      Acquisition                     0       2,027,446                  0
               2012-006      Contract Modification Charges      and
                             for Extended Indirect Overhead     Procurement
                             Costs Not Supported
 03/28/2012    OIG-E-        Human Capital Management:          Human                           0                0                 0
               2012-009      Controls Over the Use of Tempo-    Capital
                             rary Management Assignments        Management
                             Need Improvement
 03/28/2012    OIG-E-        Acela Car Purchase:                Asset                           0                0                 0
               2012-010      Future Revenue Estimates           Management
                             Were Initially Overstated
 03/30/2011    OIG-A-        Amtrak Corporate Governance:       Governance                      0                0                 0
               2012-007      Implementing a Risk Manage-
                             ment Framework is Essential
                             to Achieving Amtrak’s Strategic
                             Goals
 Total                                                                              $9,683,675        $2,231,348                  $0


                                                Audits/Evaluations
                                                In process at 10/1/2011:                                                  24
                                                Postponed or canceled:                                                     1
                                                Started:                                                                   6
                                                Issued:                                                                    9
                                                In process at 3/31/2012:                                                  20


54   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                                                                                      Appendix




Appendix 4

Office of Inspector General
Reporting Period: 10/1/2011–3/31/2012

                        Previous Audit Reports’ Recommendations for Which
                             Corrective Action Has Not Been Completed
                                       Report Number/        Funds to be Put             Questioned          Unsupported
 Audit Reports                         Date                    to Better Use                  Costs                Costs
 Railroad Invoice Review: SPCSL        506-2001/                  $          0       $     125,957                       $0
 Report 1 of 4                         08/03/2001
 Railroad Invoice Review: SPCSL        507-2001/                             0             153,766                        0
 Report 2 of 4                         08/31/2001
 Railroad Invoice Review: SPCSL        508-2001/                             0             140,377                        0
 Report 3 of 4                         09/12/2001
 Railroad Invoice Review: SPCSL        509-2001/                             0             282,957                        0
 Report 4 of 4                         09/21/2001
 Host RRCA and Operations Man-         401-2008/                             0                    0                       0
 agement Controls                      08/21/2008
 CSX On-Time Performance Incen-        406-2005/                             0           20,052,519                       0
 tives: Inaccurate Invoices and Lack   03/30/2010
 of Amtrak Management Review
 Lead to Overpayments
 BNSF On-Time Performance Incen-       407-2003/                             0                    0                       0
 tives: Inaccurate Invoices and Lack   09/24/2010
 of Amtrak Management Review
 Lead to Overpayments
 Strategic Asset Management Pro-       105-2010/                             0                    0                       0
 gram Controls Design Is Generally     01/14/2011
 Sound, But Improvements Can Be
 Made
 On-Time-Performance Incentives:       403-2010/                             0             519,932                        0
 Inaccurate Invoices Were Paid Due     04/21/2011
 to Long-standing Weaknesses in
 Amtrak's Invoice-Review Process
 Strategic Asset Management Pro-       001-2011/                             0                    0                       0
 gram: Further Actions Should be       06/2/2011
 Taken To Reduce Business Disrup-
 tion Risk
 American Recovery and Reinvest-       908-2010/                   1,400,000                      0                       0
 ment Act: Infrastructure Improve-     06/22/2011
 ments Achieved but Less than
 Planned

                                                                                                      (continued on next page)




                        Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012     55
Appendix




     Appendix 4     (continued from previous page)

     Office of Inspector General
     Reporting Period: 10/1/2011–3/31/2012

                              Previous Audit Reports’ Recommendations for Which
                                   Corrective Action Has Not Been Completed
                                              Report Number/        Funds to be Put            Questioned       Unsupported
      Audit Reports                           Date                    to Better Use                 Costs             Costs
      Acela Car Purchase Draft Request        009/2011/                $            0          $            0    $        0
      for Proposal: Additional Require-       09/21/2011
      ments and Pre-Award Audit Clause
      Needed to Help Assess Proposed
      Cost and Price
      Americans with Disabilities Act:        109-2010/                             0                       0             0
      Leadership Needed to Help Ensure        09/29/2011
      That Stations Served By Amtrak
      Are Compliant
      Passenger Rail Investment and           OIG-A-2012-001/                       0                       0             0
      Improvement Act of 2008: Amtrak         10/26/2011
      Has Made Good Progress, but
      Continued Commitment Needed to
      Fully Address Provisions
      Wireless Network Security: Internal     OIG-A-2012-003/                       0                       0             0
      Controls Can Be Improved                12/07/2011
      On-Time-Performance Incentives:         OIG-A-2012-004/                       0          9,151,451                  0
      Inaccurate Invoices Were Paid Due       02/15/012
      to Weaknesses in Amtrak's Invoice-
      Review Process
      Amtrak Invoice Review: Inaccurate       OIG-A-2012-005/                       0              532,224           203,902
      Invoices Were Paid, But Progress        02/1/2012
      is Being Made to Improve the
      Invoice-Review Process
      Incurred-Cost Contract Audit:           OIG-A-2012-006/                       0                       0    2,027,446
      Contract Modification Charges for       February 17,
      Extended Indirect Overhead Costs        2012
      Not Supported
      Amtrak Corporate Governance:            OIG-A-2012-007/                       0                       0             0
      Implementing a Risk Management          March 30, 2012
      Framework is Essential to Achiev-
      ing Amtrak's Strategic Goals
      Total                                                             $1,400,000           $30,959,183        $2,231,348




56   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                                                                                                           Appendix




Appendix 5

Office of Inspector General
Reporting Period: 10/1/2011–3/31/2012


                        Previous Evaluation Reports’ Recommendations for Which
                               Corrective Action Has Not Been Completed
                                                                                                                          Estimated Annual
                                                                Report Number/                   Estimated Annual           Savings Already
 Evaluation Reports                                             Date                                      Savingsa                Achieved
                                                                E-05-04/                          $100,000,000+               $30,000,000
 Mechanical Maintenance Operationsb                             09/06/2005
                                                                E-06-02/                             28,000,000+                  4,000,000
 Amtrak Fleet Planning Process                                  04/06/2006
                                                                E-06-04/                     	                    0                           0
 Facility Maintenance Program                                   08/24/2006
                                                                E-09-03/                             23,000,000+                              0
 Human Capital Management                                       05/15/2009
                                                                E-09-05/                             50,000,000+                              0
 Infrastructure Maintenance Program                             09/29/2009
                                                                E-09-06/                              8,000,000                               0
 Training and Employee Development                              10/26/2009
 Operation RedBlock: Actions Needed to                          E-11-01/                     	                    0                           0
 Improve Program Effectiveness                                  03/15/2011
 Evaluation of Amtrak’s FY 2010 Fleet Strategy:                 E-11-02/                     	                    0                           0
 A Commendable High-Level Plan That Needs                       03/31/2011
 Deeper Analysis and Planning Integrationc
 Food and Beverage Service: Further Actions                     E-11-03/                     	                    0                           0
 Needed to Address Revenue Losses Due to                        06/23/2011
 Control Weaknesses and Gaps
 Human Capital Management: Lack of Prior-                       E-11-04/                     	                    0                           0
 ity Has Slowed OIG-Recommended Actions to                      07/08/2011
 Improve Human Capital Management, Training,
 and Employee Development Practices
 Human Capital Management: Controls Over                        OIG-E-2012-009/              	                    0                           0
 the Use of Temporary Management Assignment                     03/28/2012
 Need Improvement
 Acela Car Purchase: Future Revenue Estimates                   OIG-E-2012-010/              	                    0                           0
 Were Initially Overstated                                      03/28/2012
 Total                                                                                            $209,000,000+               $34,000,000+


a Estimated savings based on benchmarking to other organizations
b Follow-up evaluation underway
c Not included in the total amount are the funds to be put to better use identified in Report E-11-02 (March 31, 2011). Implementing the
 recommendations in this report would allow Amtrak to reduce its fleet requirements by 53 cars and 25 locomotives over the 30-year planning
 period in Amtrak’s Fleet Strategy, resulting in a potential reduction of over $520 million in procurement and overhaul costs over the lives of these
 additional pieces of equipment. Additionally, implementing the report recommendation to replace its single-level cars with multi-level cars would
 result in the additional reduction of $174 million to $679 million in procurement and overhaul costs over the lives of the equipment.



                            Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012                        57
Appendix




     Appendix 6

     Office of Inspector General
     Reporting Period: 10/1/2011–3/31/2012



                                        Review of Legislation and Regulations

     Section 4(a) of the Inspector General Act of 1978, as amended, provides that the Inspector General shall review exist-
     ing and proposed legislation and regulations relating to programs and operations of such establishment and to make
     recommendations in the semiannual reports…concerning the impact of such legislation or regulations on the economy
     and efficiency in the administration of such programs and operations administered or financed by such establishment
     or the prevention and detection of fraud and abuse in such programs and operations.

     During this reporting period, the OIG worked with the following congressional committees to ensure that taxpayer
     funds provided to Amtrak are protected by law from fraud, waste, and abuse: the Senate Committees on Commerce,
     Homeland Security and Government Affairs, and the Judiciary; the House Committees on the Judiciary, Oversight and
     Government Reform, and Transportation and Infrastructure. With the support of these committees, several provisions
     were added to the text of the Senate and House versions of the surface transportation bill (S. 1813, H.R. 7) to


     •	 apply certain provisions of Title 18 to Amtrak and the OIG to ensure that the federal funding Amtrak receives is pro-
        tected from fraud, waste, and abuse;
     •	 clarify that claims and statements made to Amtrak are considered as claims and statements under the False Claims
        Act to ensure the OIG has the necessary tools to protect the government and taxpayer dollars from fraud;
     •	 extend qualified immunity to Amtrak OIG personnel to ensure that performance of their statutory duties is not hin-
        dered by the threat of litigation and liability; and
     •	 authorize the OIG to take advantage of the General Services Administration’s programs designed to conserve federal
        resources, reduce expenses, and increase efficient operations.

     The House Transportation and Infrastructure Committee reported its surface transportation bill (H.R. 7), the American
     Energy and Infrastructure Jobs Act of 2012, with these provisions included, on February 13, 2012. The United States
     Senate voted 74 to 22 to pass its surface transportation bill (S. 1813), Moving Ahead for Progress in the 21st Century
     (MAP-21), also with these provisions included, on March 14, 2012.




58   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                                                                                   Appendix




Appendix 7

Office of Inspector General
Reporting Period: 10/1/2011–3/31/2012



                                              peer review results

The Dodd–Frank Wall Street Reform and Consumer Protection Act (P. L. 111-203, July 21, 2010) requires each Office
of Inspector General (OIG) to include in its Semiannual Report to Congress the results of any peer review conducted by
another OIG during the reporting period, or—if no peer review was conducted—a statement identifying the date of the
last peer review. Also required is a list of all peer reviews conducted by the OIG of another OIG, and the status of any
recommendations made to or by the OIG.

A review of the Amtrak Office of Inspector General’s Office of Audits was conducted by the Inspector General of the
Legal Services Corporation for the year ended September 30, 2008. All recommendations have been implemented.

We have not performed a peer review of any other OIG organization.

The next external peer review for the Office of Audits will be conducted by the Tennessee Valley Authority OIG during
Fiscal Year 2013.

The next external peer review for the Office of Investigations will be conducted by the Nuclear Regulatory Commission
OIG beginning in March 2013.




                       Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   59
60   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                                                                                    Glossary




Glossary of Audit Terms and Abbreviations
The terms the OIG uses in reporting audit statistics are defined below:
Questioned Cost – Cost or expenditure of funds for an intended purpose that is unnecessary, unreasonable, or an
alleged violation of Amtrak’s corporate policy or procedure.
Unsupported Cost – Cost that is not supported by adequate documentation at the time of the audit.
Funds to Be Put to Better Use – Funds identified in an audit that could be used more effectively by taking greater
efficiency measures.
Management Decision – Management’s evaluation of the OIG audit finding and its final decision concerning
agreement or non-agreement with the OIG recommendation.

Abbreviations/acronyms used in the text are defined below:

        BNSF       Burlington Northern Santa Fe Railway Co.
         CEO       chief executive officer
          CSX      CSX Transportation, Inc.
         ERM       enterprise risk management
        NAPA       National Academy of Public Administration
          OIG      Office of Inspector General
        PRIIA      Passenger Rail Investment and Improvement Act
         TMA       temporary management assignment
        USPS       United States Postal Service




                       Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   61
62   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
                                                                                              Reporting Requirements




Reporting Requirements Index

Office of Inspector General




           INDEX OF REPORTING REQUIREMENTS PURSUANT TO THE INSPECTOR GENERAL ACT


Topic/Section      Reporting Requirement                                                                       Page
4(a)(2)            Review of Legislation and Regulations                                                         58

5(a)(1)            Significant Problems, Abuses, and Deficiencies                                            19-35
                   Recommendations for Corrective Action to Significant
5(a)(2)                                                                                                      19-35
                   Problems
                   Previous Reports’ Recommendations for Which Corrective
5(a)(3)                                                                                                      55-57
                   Action Has Not Been Completed

5(a)(4)            Matters Referred to Prosecutive Authorities                                               37-38

5(a)(5)            Information Assistance Refused or Not Provided                                               n/a

5(a)(6)            Audit Reports Issued in This Reporting Period                                             19-29

5(a)(7)            Summary of Significant Reports                                                            19-35

5(a)(8)            Audit Reports with Questioned Costs                                                           52
                   Audit Reports with Recommendations That Funds Be Put
5(a)(9)                                                                                                          53
                   To Better Use
                   Previous Audit Reports Issued with No Management
5(a)(10)                                                                                                     52-53
                   Decision Made by End of This Reporting Period

5(a)(11)           Significant Revised Management Decisions                                                     n/a
                   Significant Management Decisions with Which the OIG is
5(a)(12)                                                                                                        n/a
                   in Disagreement
                   Federal Financial Management Improvement Act-related
5(a)(13)                                                                                                        n/a
                   Reporting

5(a)(14-16)        Peer Review Results                                                                           59




                         Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   63
                                 Stop Waste, Fraud, Abuse,
                                 and Mismanagement!
                                 Who pays? You pay.
                                 Act like it’s your money…because it is.
                                 Tell Us About It
                                 Are you aware of waste, fraud, abuse, or mismanagement at Amtrak? Amtrak’s
                                 Office of Inspector General (OIG) has a toll-free Hotline number that you can call,
                                 even if you’re not certain that what you suspect falls into one of these categories.
                                 If you’d prefer to write to us, that’s fine, too.

                                 The OIG will keep your identity confidential. You may remain anonymous if you
                                 so choose. You are protected by law from reprisal by your employer.



                                 Call the Amtrak OIG Hotline
                                 Nationwide: (800) 468-5469


                                 Write to us
                                 Office of Inspector General
                                 P.O. Box 76654
                                 Washington, D.C. 20013-6654

                                 Visit us online
                                 www.amtrakoig.gov




64   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012
www.amtrakoig.gov


  Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012   65
         National Railroad Passenger Corporation
                 Office of Inspector General
10 G Street, NE, Suite 3W-300, Washington, DC 20002-4285
                     www.amtrakoig.gov
